RECORD NUMBER:
__________________________________________
______
United States Supreme Court
JOSEPH LOUIS PADUANO,
Petitioner ,
- V. COMMONWEALTH OF VIRGINIA,
Respondent
PETITION FOR CERTIORARI FROM JUDGMENT
OF THE VIRGINIA SUPREME COURT
PETITION FOR CERTIORARI
DALE R. JENSEN
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VIRGINIA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

PETITION FOR CERTIORARI

Questions Presented for Review
A.
Should Hurtado v. California be overruled?
B.
Does the right to a grand jury indictment
conferred by the Fifth Amendment to the
United States Constitution apply to state
indictments via the Fourteenth
Amendment?
C.
Does a defective grand jury indictment in a
state court criminal case deprive the state
court of jurisdiction in such a case?

i

PETITION FOR CERTIORARI

List of All Parties to the Proceeding
All parties are as listed in the caption hereof. Joseph
Louis Paduano is an individual for which no
corporate disclosure statement is required by Rule
29.6.

ii

PETITION FOR CERTIORARI

TABLE OF CONTENTS
Page
Questions Presented for Review
i
List of All Parties to the Proceeding
ii
I. Citations of the Official and Unofficial
Reports of the Opinions and Orders Entered
in this Case by Courts
1
II. Statement of the Basis of Appellate
Jurisdiction
1
III. Constitutional Provisions and Statutes
Involved in the Case
2
IV. Statement of the Case
3
A. Procedural Posture
3
B. Statement of Facts
6
V. Argument
6
VI. Overall Conclusion
58
App. A Dismissal Letter and Order App. A 1-20
App. B Order Transferring Appeal App. B 1-1
App. C Order Denying Appeal
App. C 1-1
App. D Motion to Vacate
App. D 1-4
App. E Memo in Spt of Mtn to VacateApp. E 1-51
App. F Notice of Appeal
App. F 1-4
App. G Petition for Appeal
App. G 1-67
App. H Handbook for Virginia
Grand Jurors
App. H 1-64

iii

PETITION FOR CERTIORARI

TABLE OF CASES
Cases

Page

Adamson v. California
332 U.S. 46, 67 S. Ct. 1672 (1947)
17, 33-34
Adcock v. Commonwealth
49 Va. (Gratt.) 661, 671 (1851)
46
Anthony v. Kasey
83 Va. 338, 5 S.E. 176 (1887)
53
Barron ex rel. Tiernan v. Mayor of Baltimore
7 Pet. 243 (1833)
7, 17, 37-38
Benton v. Maryland
3395 U.S. 784, 89 S. Ct. 2056 (1969)
18, 31
Branzburg v. Hayes
408 U.S. 665 (1972)
16
Chi., B. & Q. R. Co. v. Chicago
4166 U.S. 226, 17 S. Ct. 581 (1897)
32
Commonwealth v. Cawood
4 Va. 527 (1826)
43-46, 51
Costello v. United States
350 U.S. 359 (1956)
16
District of Columbia v. Heller
554 U.S. 570, 128 S. Ct. 2783 (2008)
34
Duncan v. Louisiana
391 U.S. 145, 88 S. Ct. 1444 (1968)
17-18
Evans v. Smith-Wythe Airport Comm’n
255 Va. 69 (1998)
52-53
Ex parte Wilson
114 U.S. 417, 5 S. Ct. 935 (1885)
15
Farewell v. Commonwealth
167 Va. 475, 189 S.E. 321 (1937)
13
Galpin v. Page
85 U.S. (18 Wall.) 350, 366 (1873)
42
Gideon v. Wainright
iv

PETITION FOR CERTIORARI

372 U.S. 335, 83 S. Ct. 792 (1963)
17-18
Griffin v. California
380 U.S. 609, 615 (1965)
14-15
Guynn v. Commonwealth
163 Va. 1042, 177 S.E. 227 (1934)
14
Hamling v. United States
418 U.S. 87, 41 L. Ed. 2d 590 (1974)
56
Hanson v. Smyth
183 Va. 384 (1944)
13-14, 42
Hurtado v. California
110 U.S. 516 (1884)
7-12, 20-21
Magill v. Brown
16 F. Cas. 408 (CC ED Pa. 1833)
35
Malloy v. Hogan
378 U.S. 1, 84 S. Ct. 1489 (1964)
9, 18, 31
Marbury v. Madison
5 U.S. 137, 1 Cranch 137 (1803)
2, 30, 32
McDonald v. City of Chi.
561 U.S. 742, 130 S. Ct. 3020 (2010) 16-22, 34-40
Pine v. Commonwealth
121 Va. 812, 93 S.E. 652 (1917)
13-14
Pointer v. Texas
380 U.S. 400, 85 S. Ct. 1065 (1965)
18
Reed v. Commonwealth
281 Va. 471, 706 S.E. 2d 854 (2011)
54
Renigar v. United States
172 F. 646 (4th Cir. 1909)
47-50
Russell v. United States
369 U.S. 749, 8 L. Ed. 2d 240, 82
55-56
Shelton v. Sydnor
1126 Va. 625, 102 S.E. 83 (1920)
52
Simmons v. Commonwealth
89 Va. 156, 157 (1892)
44-46
Sims v. Commonwealth
28 Va. App. 611 (1998)
56-57
v

PETITION FOR CERTIORARI

Slaughter v. Commonwealth
222 Va. 787, 793 (1981)
Slaughter-House Cases
83 U.S. (16 Wall.) 36 (1872)
United States v. Calandra
414 U.S. 338, 94 S. Ct. 613 (1974)
United States v. Hooker
841 F. 2d 1225 (4th Cir. 1988)
United States v. Lennick
18 F.3d 814, 817 (9th Cir. 1994)
United States v. Smyth
104 F. Supp. 283 (N.D. Cal. 1952)
Washington v. Texas
388 U.S. 14, 87 S. Ct. 1920 (1967)
Constitution
Fifth Amendment
Fourteenth Amendment
28 U.S.C. § 1257
Va. Code §17.1-123
Va. Code §17.1-124
Va. Code §17.1-240
Va. Code §18.2-63
Va. Code §18.2-65
Va. Code §18.2-308.2
Va. Code §18.2-370
Va. Code §18.2-370.1
Va. Code §19.2-202
Va. Code §19.2-227
Va. Code §19.2-242

Statutes

42
7-8
15-16
56
50
25-27
18
passim
passim

2
2, 45
2, 45
2, 45
2-3, 6, 52, 54-57
4
2-4, 6
3, 6
3, 6
42
53
46

Court Rules
Virginia Supreme Court Rule 3A:5

44

Secondary Sources
1 Annals of Cong. (1789)

37

vi

PETITION FOR CERTIORARI

1 Bishop on Crim. Procedure
48
1 Chitty on Crim. Law
47
1 Journals of the Continental Congress 1774-1789, p.
68 (W. Ford. ed. 1904)
37
4 Blackstone
48
B. Bailyn, The Ideological Origins of the American
Revolution 77-79 (1967)
36
Bonner, Lawyers and Litigants in Ancient Athens
36 (1927)
22
Constitution of Clarendon
23
Handbook for Virginia Grand Jurors
23-24, 28
Magna Carta
23
Patterson, The Administration of Justice in Great
Britain 200 (1936)
22
Report of the Joint Committee on Reconstruction, S.
Rep. No. 112, 39th Cong., 1st Sess., 15 (1866);
H. R. Rep. No. 30, 39th Cong., 1st Sess., p. XXI
(1866)
39
Whyte, Is the Grand Jury Necessary?, 45 Wm. and
Mary L. Rev. 462-71 (1959)
22-23

vii

PETITION FOR CERTIORARI

I.

Citations of the Official and Unofficial

Reports of the Opinions and Orders Entered
in this Case by Courts
On December 16, 2019, the Circuit Court for
the County of Pittsylvania entered its Order denying
a Motion to Vacate (the “Motion”) filed by Joseph
Louis Paduano (“Paduano”). The Order was not
entered into an official report. Paduano timely
appealed the denial of the Motion to the Virginia
Court of Appeals, which subsequently transferred
the case to the Virginia Supreme Court.
The Virginia Supreme Court entered its Order
finally dismissing the Petition for Appeal on
November 17, 2020. The Order was not entered into
an official report.

II.

Statement of the Basis of Appellate

Jurisdiction

The Virginia Supreme Court entered its
Judgment on November 17, 2020.
This Court has appellate jurisdiction in this
appeal pursuant to 28 U.S.C. § 1257.

III.

Constitutional Provisions and Statutes

Involved in the Case
The Fifth Amendment and the Fourteenth
Amendments to the United States Constitution are
involved in this case.
Paduano’s indictments were defective
pursuant to Va. Code §§ 17.1-123(A) and 17.1-124
and 17.1-240, which are involved in this case, which
implicate the Fifth Amendment and the Fourteenth
Amendments to the United States Constitution.
Paduano was convicted pursuant to Va. Code §
§18.2-63(A), VA Code §18.2-308.2(A), which are
involved in this case.
Petition for Certiorari

Page 2

IV.

Statement of the Case
A. Procedural Posture
Unconfirmed records allege that a grand jury

indicted Paduano in the Pittsylvania County Circuit
Court (the “Circuit Court”) on one count of sexual
intercourse with a child in violation of VA Code
§18.2-63 and one count of unlawful and intentional
possession of a firearm in violation of VA Code §18.2308.2(A). In addition, to these two charges, Paduano
was allegedly indicted for one count animate object
sexual penetration in violation of VA Code §18.2370(A), and one count felony sexual abuse in
violation of VA Code §18.2-370.1. No court order
signed by any Circuit Court judge was ever entered
confirming that a grand jury had been convened or
acted. Accordingly, Paduano was never indicted by a
grand jury such that the Circuit Court had
Petition for Certiorari

Page 3

jurisdiction over Paduano.
Paduano appeared in the Circuit Court and
entered not guilty pleas to the charges. Paduano was
tried by a jury and found guilty of two counts of
carnal knowledge, second or subsequent felony
sexual assault, in violation of Code § 18.2-65(A), and
one count of possession of a firearm after having
been convicted of a violent felony, in violation of Code
§ 18.2-308.2. On April 28, 2014, Paduano was
sentenced to a total of thirty years for these
convictions with twenty-two years suspended.
Paduano appealed his convictions. On
December 30, 2014, the Virginia Court of Appeals
affirmed Paduano’s convictions. On February 5,
2016, the Supreme Court of Virginia issued a final
refusal of Paduano’s appeal.
The Virginia Supreme Court denied Paduano’s
Petition for Writ of Habeas Corpus on August 16,
Petition for Certiorari

Page 4

2017.
The U.S. District Court for the Western
District of Virginia denied Paduano’s Petition for
Writ of Habeas Corpus on September 27, 2018, also
on procedural grounds.
On or about November 27, 2019, Paduano
moved to vacate the judgments against him because
he was never indicted, which deprived the Circuit
Court of jurisdiction.
On or about December 16, 2019, the Circuit
Court denied Paduano’s motion to vacate.
The Virginia Supreme Court denied Paduano’s
appeal of the Circuit Court decision on November 17,
2020.
This Petition for Writ of Certiorari is filed
seeking reversal of the decisions of the Circuit Court
and the Virginia Supreme Court.

Petition for Certiorari

Page 5

B. Statement of Facts
Unconfirmed records in the files of the Circuit
Court allege that a grand jury indicted Paduano on
one count of sexual intercourse with a child in
violation of VA Code §18.2-63 and one count of
unlawful and intentional possession of a firearm in
violation of VA Code §18.2-308.2(A). In addition, to
these two charges, Paduano was allegedly indicted
for one count animate object sexual penetration in
violation of VA Code §18.2-370(A), and one count
felony sexual abuse in violation of VA Code §18.2370.1. No court order signed by the Circuit Court
judge was ever entered regarding the grand jury that
indicates that any such proceeding ever took place or
that Paduano was ever indicted.

V.

Argument
A. Discussion of Questions Presented

Petition for Certiorari

Page 6

1.

Should Hurtado v. California be
overruled?

Hurtado was decided in 1884 while this Court
was still adhering to an unconstitutional failure to
apply the Bill of Rights to the States.
The Bill of Rights originally applied only to the
Federal Government, not to the States,
see, e.g., Barron ex rel. Tiernan v. Mayor of

Baltimore, 7 Pet. 243 (1833).
However, constitutional Amendments adopted
in the Civil War's aftermath fundamentally altered
the federal system. Four years after the adoption of
the Fourteenth Amendment, this Court held in
the Slaughter-House Cases, that the Privileges or
Immunities Clause protects only those rights “which
owe their existence to the Federal government, its
National character, its Constitution, or its
laws.” Slaughter-House Cases, 83 U.S. (16 Wall.) 36,
Petition for Certiorari

Page 7

79 (1872). However, the Slaughter-House Cases
incorrectly held that the fundamental rights
predating the creation of the Federal Government
were not protected by the Clause. Id., at 76. Under
that incorrect narrow reading, the Court held that
the Privileges or Immunities Clause of the
Fourteenth Amendment protected only very limited
rights. Id., at 79-80, 83 U.S. 36, 21 L. Ed. 394.
The Hurtado opinion implicitly relied upon the
legally incorrect principles of the Slaughter-House

Cases and did not analyze whether the grand jury
right of the Fifth Amendment applied to the states
under the Fourteenth Amendment.
Instead, the Hurtado Court merely performed
a flawed analysis that focused on whether practices
adopted in California for criminal prosecution
satisfied due process provisions of the Fourteenth
Amendment.
Petition for Certiorari

Page 8

The flawed analysis in Hurtado, contrary to
seminal binding precedent, rendered the grand jury
right of the Fifth Amendment meaningless and
without effect to the citizens of the States.
“It cannot be presumed that any clause in the
constitution is intended to be without effect.”

Marbury v. Madison, 5 U.S. 137, 1 Cranch 137, 174
(1803) (opinion for the Court by Marshall, C. J.).
In the Hurtado opinion, the due process right
of the Fourteenth Amendment was alleged to
completely subsume the Fifth Amendment right to a
grand jury and render that grand jury right to be
without effect.
The Hurtado opinion was wrong when it was
rendered and it continues to be wrong today. As
discussed in additional detail, infra, all rights of the
Bill of Rights were explicitly applied to the states via
the Fourteenth Amendment notwithstanding this
Petition for Certiorari

Page 9

Court’s ongoing reluctance to acknowledge that
premise.
This Court’s continued reluctance to
acknowledge that each and every right of the Bill of
Rights applies to the states via the Fourteenth
Amendment exceeds the constitutional authority of
this Court and should be ended.
To be clear, the United States Supreme Court
does not have the authority or ability to unilaterally
amend the United States Constitution by ignoring
the grand jury right of the Fifth Amendment.
Instead, the authority of the United States Supreme
Court is governed by the United States Constitution
and should explicitly acknowledge that the grand
jury right of the Fifth Amendment applies to the
states via the Fourteenth Amendment.
Accordingly, for reasons stated throughout
this Petition, Paduano requests that this Court
Petition for Certiorari

Page 10

explicitly overrule Hurtado and acknowledge that

Hurtado was incorrectly decided.

2.

Does the right to a grand jury
indictment conferred by the Fifth
Amendment to the United States
Constitution apply to state
indictments via the Fourteenth
Amendment?
The Fifth Amendment to the United States

Constitution provides in pertinent part:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time of
War or public danger;
The right to a grand jury indictment conferred
by the Fifth Amendment to the United States
Constitution should apply to state indictments via
Petition for Certiorari

Page 11

the Fourteenth Amendment. Given changes in
constitutional law that have occurred since Hurtado

v. California, 110 U.S. 516, 519 (1884) was decided
over 130 years ago, it is time to overrule that
opinion.
It should not be the case that state courts,
such as those of Virginia in this case, are allowed to
ignore the grand jury rights of defendants conferred
by the Fifth Amendment and then claim that
defendants effectively have no recourse. It is
certainly possible to hold that states can have
indictment methods that have equivalent protections
to the federal grand jury system, the grand jury
system of Virginia, and the grand jury systems of
other states. What should not be allowed is for a
fundamental constitutional right, such as the Fifth
Amendment right to a grand jury indictment be
violated with impunity, and state courts then to be
Petition for Certiorari

Page 12

able to claim that right to be “merely procedural” and
subject to waiver.
The Circuit Court and the Virginia Supreme
Court each implicitly denied Paduano’s motion to
vacate based upon a case decided over 70 years ago
by the Virginia Supreme Court. In that case, the
Virginia Supreme Court made an erroneous
determination that any defective grand jury
indictment was a waivable procedural matter and
was not jurisdictional. Hanson v. Smyth, 183 Va.
384, 390-91 (1944).
In Hanson, the Virginia Supreme Court opined
(emphasis added):
While the Fifth Amendment to the
Federal Constitution requires a
presentment or indictment in
prosecutions under Federal
statutes “for a capital, or
otherwise infamous crime,” the
Virginia Constitution contains no
such requirement. Farewell v.
Commonwealth, 167 Va. 475, 484, 189
S.E. 321, 325; Pine v. Commonwealth,
Petition for Certiorari

Page 13

121 Va. 812, 835, 93 S.E. 652; Guynn v.
Commonwealth, 163 Va. 1042, 1046,
177 S.E. 227. In this State the
requirement is merely statutory …
Since the statutory requirement for an
indictment in the present case is not
jurisdictional, the failure of the record
to show affirmatively that the
indictment was returned into court by
the grand jury is not such a defect as
will render null and void the judgment
of conviction based thereon.

Hanson, 183 Va. at 390-91.
The Hanson opinion relied upon a false
premise that the Fifth Amendment to the Federal
Constitution did not apply to Virginia under the
equal protection clause of the Fourteenth
Amendment. However, since Hanson was decided,
this Honorable Court has significantly expanded the
application of the Bill of Rights of the Constitution to
state law matters under the equal protection portion
of the Fourteenth Amendment. For example; in

Griffin v. California, 380 U.S. 609, 615 (1965); this
Honorable Court specifically held that the selfPetition for Certiorari

Page 14

incrimination provision of the Fifth Amendment
applied to the States by reason of the Fourteenth
Amendment.
The right to indictment by grand jury was and
is a longstanding right established by the law of
England. See, e.g., Ex parte Wilson, 114 U.S. 417,
423-24, 5 S. Ct. 935, 938 (1885). Without the
intervention of a grand jury, trials were not allowed
for capital crimes, nor for any felony. Id. The right
to a grand jury indictment was so fundamental to the
criminal justice rights of defendants that rights
therefor were placed in the Fifth Amendment of the
Bill of Rights. Id.; Fifth Amendment of the U.S.
Constitution.
As this Court has held (emphasis added):
In England, the grand jury served for
centuries both as a body of accusers
sworn to discover and present for trial
persons suspected of criminal
wrongdoing and as a protector of
citizens against arbitrary and
Petition for Certiorari

Page 15

oppressive governmental action. In
this country the Founders thought
the grand jury so essential to
basic liberties that they provided
in the Fifth Amendment that
federal prosecution for serious
crimes can only be instituted by
“a presentment or indictment of a
Grand Jury.” Cf. Costello v. United
States, 350 U.S. 359, 361-362 (1956).
The grand jury’s historic functions
survive to this day. Its responsibilities
continue to include both the
determination whether there is
probable cause to believe a crime has
been committed and the protection of
citizens against unfounded criminal
prosecutions. Branzburg v. Hayes, 408
U.S. 665, 686-687 (1972).

United States v. Calandra, 414 U.S. 338, 342-43, 94
S. Ct. 613, 617 (1974).
In 2010, this Honorable Court explained in
some detail the history of application of the Bill of
Rights to the States via the Fourteenth Amendment.

McDonald v. City of Chi., 561 U.S. 742, 761-65, 130
S. Ct. 3020, 3032-35 (2010). In McDonald, this Court
set forth in pertinent part (emphasis added):
Petition for Certiorari

Page 16

An alternative theory regarding the
relationship between the Bill of Rights
and § 1 of the Fourteenth Amendment
was championed by Justice Black. This
theory held that § 1 of the
Fourteenth Amendment totally
incorporated all of the provisions
of the Bill of Rights. See, e.g.,
Adamson, supra, at 71-72, 67 S. Ct.
1672, 91 L. Ed. 1903 (Black, J.,
dissenting); Duncan, supra, at 166, 88
S. Ct. 1444, 20 L. Ed. 2d 491 (Black, J.,
concurring). As Justice Black noted,
the chief congressional
proponents of the Fourteenth
Amendment espoused the view
that the Amendment made the
Bill of Rights applicable to the
States and, in so doing, overruled
this Court’s decision in Barron .
Adamson, supra, at 72, 67 S. Ct. 1672,
91 L. Ed. 1903 (dissenting opinion).
Nonetheless, the Court never has
embraced Justice Black’s “total
incorporation” theory.
While Justice Black’s theory was
never adopted, the Court
eventually moved in that
direction by initiating what has
been called a process of “selective
incorporation,” i.e ., the Court
began to hold that the Due
Process Clause fully incorporates
particular rights contained in the
first eight Amendments. See, e.g.,
Gideon v. Wainright, 372 U.S. 335, 341,
Petition for Certiorari

Page 17

83 S. Ct. 792, 9 L. Ed. 2d 799 (1963);
Malloy v. Hogan, 378 U.S. 1, 5-6, 84 S.
Ct. 1489, 12 L. Ed. 2d 653 (1964);
Pointer v. Texas, 380 U.S. 400, 403-404,
85 S. Ct. 1065, 13 L. Ed. 2d 923 (1965);
Washington v. Texas, 388 U.S. 14, 18,
87 S. Ct. 1920, 18 L. Ed. 2d 1019 (1967);
Duncan, 391 U.S., at 147-148, 88 S. Ct.
1444, 20 L. Ed. 2d 491; Benton v.
Maryland, 395 U.S. 784, 794, 89 S. Ct.
2056, 23 L. Ed. 2d 707 (1969).
The decisions during this time
abandoned three of the previously noted
characteristics of the earlier period. The
Court made it clear that the governing
standard is not whether any “civilized
system [can] be imagined that would
not accord the particular protection.”
Duncan, 391 U.S., at 149, n. 14, 88 S.
Ct. 1444, 20 L. Ed. 2d 491. Instead,
the Court inquired whether a
particular Bill of Rights
guarantee is fundamental to our
scheme of ordered liberty and
system of justice. Id., at 149, and n.
14, 88 S. Ct. 1444, 20 L. Ed. 2d 491; see
also id., at 148, 88 S. Ct. 1444, 20 L. Ed.
2d 491 (referring to those “fundamental
principles of liberty and justice which
lie at the base of all our civil and
political institutions” (emphasis added;
internal quotation marks omitted)).
The Court also shed any reluctance to
hold that rights guaranteed by the Bill
of Rights met the requirements for
protection under the Due Process
Petition for Certiorari

Page 18

Id.

Clause. The Court eventually
incorporated almost all of the provisions
of the Bill of Rights. Only a handful of
the Bill of Rights protections remain
unincorporated.
Paduano avers that Justice Black’s reasoning

is substantively correct and the Bill of Rights is not
an ala carte menu for courts to pick and choose from.
No court, including this Honorable Court, should
purport to have authority to pick and choose which
rights of the Bill of Rights to enforce and which not
to enforce. Such authority is solely within the
province of the people through their states to amend
the Constitution if they believe that such is
warranted. Paduano respectfully avers that Bill of
Rights applies to the states through the Fourteenth
Amendment in its entirety. Accordingly, any
remaining provisions of the Bill of Rights not
explicitly applied to states via the Fourteenth
Amendment heretofore by this Court should be
Petition for Certiorari

Page 19

incorporated as jurisprudence moves forward in
accordance with Justice Black’s reasoning.
Paduano acknowledges that McDonald
referenced the Hurtado case from over 130 years ago
concerning grand jury indictments standing for the
premise that jurisprudence to date had not
incorporated the Fifth Amendment’s grand jury
indictment requirement. Id., 561 U.S. at 765 n.13.
However, although the case of Hurtado, 110 U.S. at
519 stopped short of applying the grand jury
provision of the Fifth Amendment to the States via
the Fourteenth Amendment, it affirmatively held
that the due process requirements had to be met as
to indictments. Id., 110 U.S. at 538. The Hurtado
Court specifically held that:
we are unable to say that the
substitution for a presentment or
indictment by a grand jury of the
proceeding by information, after
examination and commitment by a
magistrate, certifying to the probable
Petition for Certiorari

Page 20

guilt of the defendant, with the right on
his part to the aid of counsel, and to the
cross-examination of the witnesses
produced for the prosecution, is not due
process of law.

Id. The Hurtado Court did not hold that California
could ignore any and all indictment procedures
established under California law as Virginia courts
did pursuant to Virginia law in Paduano’s case. The
due process requirement needed to be met under

Hurtado and to the extent that this Court does not
revisit Hurtado, this Court should still hold that the
right to a grand jury indictment or its equivalent is
jurisdictional rather than procedural. Virginia still
must meet the due process requirement. That
requirement has simply not been met in Paduano’s
case.
If this Honorable Court wishes to continue to
follow “selective incorporation”, Paduano avers that
the Bill of Rights guarantee of a grand jury
Petition for Certiorari

Page 21

indictment is fundamental to our scheme of ordered
liberty and system of justice under the selective
incorporation doctrine. McDonald, 561 U.S. at 76165.
In order to understand why the right to a
grand indictment is fundamental, it is instructive to
review the history of grand juries and their
equivalents further. The history of grand juries goes
back to early Grecian use of “Dicasteries”, which
were tribunals picked from lists of citizens whose
duty it was to accuse, try, and convict those alleged
to have committed crimes. Bonner, Lawyers and
Litigants in Ancient Athens 36 (1927). Roman law
utilized “Judices”, which functioned similarly.
Patterson, The Administration of Justice in Great
Britain 200 (1936). Grand juries were subsequently
adopted as a part of the English system of law, which
then formed a basis for the legal system of most of
Petition for Certiorari

Page 22

the United States. See, e.g., Whyte, Is the Grand
Jury Necessary?, 45 Wm. and Mary L. Rev. 462-71
(1959). The grand jury system was then brought to
Virginia early in the seventeenth century and has
been a part of Virginia’s legal system since that time.

Id. As summarized in the Handbook for Virginia
Grand Jurors (the “Handbook”) that is currently
used by Virginia Courts (emphasis added):
The Grand Jury had its origin more
than seven centuries ago in
England from which, in large
part, this country inherited its
legal system. Many legal historians
trace its origin to events in the reign of
Henry II and to one of the articles of the
Constitution of Clarendon in 1164. It
was recognized in Magna Carta granted
by King John at the demand of the
people in 1215. One of its earliest
functions was to protect citizens from
despotic abuse of power by the king; its
other function was to report those
suspected of having committed criminal
offenses.
These two functions are carried
forward today in the work of the
Grand Jury, and its importance in
controlling the start of
Petition for Certiorari

Page 23

prosecutions for serious crimes is
recognized in both the
Constitution of the United States
and the Constitution of Virginia .
Exhibit H at § 5. Thus, the Virginia Supreme Court,
which is responsible for the Handbook recognize the
fundamental importance of grand juries in
controlling the start of prosecutions. The Virginia
Supreme Court affirmed this fundamental
importance using the Constitution of the United
States and the Constitution of Virginia as primary
authorities.
Federal and state judges have repeatedly
acknowledged the fundamental importance of grand
juries and the right thereto. For example, in an
opinion from the District Court of the Northern
District of California provided a discourse on the
importance of the grand jury right (internal footnote
references omitted, emphasis added):
Petition for Certiorari

Page 24

The institution of the grand jury is a
development which comes to us out of
the mists of early English history. It
has undergone changes, but has been
remarkable stable because the
institution has been molded into
an instrument of democratic
government, extraordinarily
efficient for reflecting not the
desires or whims of any official or
of any class or party, but the deep
feeling of the people. As such, with
its essential elements of plenary power
to investigate and secrecy of its
deliberations, it was preserved by the
Constitution of the United States not
only to protect the defendant but to
permit public spirited citizens, chosen
by democratic procedures, to attach
corrupt conditions. A criticism of the
action of the grand jury is a
criticism of democracy itself .
The inception of the ‘grand inquest’ is
shrouded in the early reaches of English
history. It was a device whereby
originally, when first authoritatively
noticed c. 1166, the Norman kings of
England required answers from
representatives of local units of
government concerning royal property
and franchise and also enforced
communal responsibility for the acts of
criminals. By gradations, the grand
juries gave voice to the fama publica of
the locale as to crimes, and were later
recognized in the character of witnesses.
Petition for Certiorari

Page 25

Through hundreds of years, these
characteristics remain inherent. In an
early stage of evolution, the body made
presentment or presented indictments
at the behest of private individuals or
the Prosecutor for the King. Vestiges of
all these factors still subsist.
The institution was thus evolved as an
instrument for efficient prosecution of
crime, and as such it has remained until
this day. The principle of secrecy was
developed to protect the King’s Counsel
and to permit the Prosecutors to have
influence with the grand jury, and in
modern times it is still useful for the
same purpose. By degrees the secrecy of
proceedings permitted two outstanding
extensions in that grand jurors at times
refused to indict notwithstanding
pressure from the Crown and the
Judges. This prerogative stood the
people will in hand during the tyranny
of the Stuarts, and, as it was eulogized
by Coke and Blackstone, the
institution was encysted with all
its characteristics in the Fifth
Amendment . But the grand jurors, by
use of secrecy of their proceedings,
stubbornly retained the power of
instituting an investigation of their own
knowledge or taking a rumor or
suspicion and expanding it through
witnesses. As we shall see, this
comprehensive power also remains at
this hour. The Constitution of the
United States preserved the grand jury
Petition for Certiorari

Page 26

with all its powers and inherent
character … the grand jury is an
essential element in the structure
of the federal government now .
No other instrument can cope
with organized crime which cuts
across state lines, conspiracies to
overthrow the government of the
United States, or alleged
deviations from rectitude by those
who have been entrusted by the
government with public trust …
The grand jury breathes the spirit of a
community into the enforcement of law.
Its effect as an institution for
investigation of all, no matter
how highly placed, creates the
elan of democracy . Here the people
speak through their chosen
representatives.

United States v. Smyth, 104 F. Supp. 283, 288-91
(N.D. Cal. 1952). The opinion in Smyth provides
solid reasoning showing why the Bill of Rights
guarantee of a grand jury indictment is fundamental
to our scheme of ordered liberty and system of
justice.
Likewise, in Virginia in particular, the
Handbook emphasizes the fundamental importance
Petition for Certiorari

Page 27

of grand juries and the right thereto by quoting
Harlan Fiske Stone, late Chief Justice of this
Honorable Court (emphasis added):
In time of peace a citizen can perform
no higher public duty than that of
Grand Jury service. No body of citizens
exercises public functions more
vital to the administration of law
and order .
The Grand Jury is both a sword and a
shield of justice-a sword, because it is a
terror of criminals; a shield, because it
is a protection of the innocent against
unjust prosecution. No one can be
prosecuted for a felony except on
an indictment by a Grand Jury .
With its extensive powers, a Grand Jury
must be motivated by the highest sense
of justice, for otherwise it might find
indictments not supported by the
evidence and thus become a source of
oppression to our citizens, or on the
other hand, it might dismiss charges
against those who should be prosecuted.
For all of the stated reasons stated herein, the grand
jury indictment is fundamental to our scheme of
ordered liberty and system of justice under the
selective incorporation doctrine because of its
Petition for Certiorari

Page 28

functions of protecting citizens against despotic
abuses of power by sovereigns and to report those
suspected of having committed criminal offenses.
Thus, the Fifth Amendment right to a grand
jury indictment or its functional equivalent should
apply to the states including, without limitation, the
Commonwealth of Virginia.

3.

The Grand Jury Right Should Apply to
the States Under the Fourteenth
Amendment Privileges or Immunities
Clause
Moreover, Section 1 of the Fourteenth

Amendment requiring that the privileges or
immunities of the Fifth Amendment should apply to
Virginia in Paduano’ case. The argument for
applicability of the privileges or immunities section

Petition for Certiorari

Page 29

of the Fourteenth Amendment is perhaps even more
compelling.
“It cannot be presumed that any clause in the
constitution is intended to be without effect.”

Marbury, 5 U.S. 137, 174.
The Fifth Amendment to the United States
Constitution states (emphasis added):
No person shall be held to
answer for a capital, or otherwise
infamous crime, unless on a
presentment or indictment of a
Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time
of War or public danger; nor shall any
person be subject for the same offence
to be twice put in jeopardy of life or
limb; nor shall be compelled in any
criminal case to be a witness against
himself, nor be deprived of life, liberty,
or property, without due process of law;
nor shall private property be taken for
public use, without just compensation.
The denial of Paduano’ Motion effectively
renders his grand jury right guaranteed by the Fifth

Petition for Certiorari

Page 30

Amendment without effect. This is error and should
be reversed.
It is noteworthy that all other rights
conferred by the Fifth Amendment other than the
grand jury right have been specifically held by the
Court to apply to the states. The double jeopardy
prohibition of the Fifth Amendment has been held
to apply to the States through the Fourteenth
Amendment. Benton, 395 U.S. at 794, 89 S. Ct. at
2062.
Likewise, the Fifth Amendment’s exception
from compulsory self-incrimination is also protected
by the Fourteenth Amendment against abridgment
by the States. Malloy, 378 U.S. at 6, 84 S. Ct. at
1492.
Further, by using comparable language to
that of the Fifth Amendment, the Fourteenth
Amendment specifically decreed that no person can
Petition for Certiorari

Page 31

be deprived of “life, liberty, or property, without due
process of law”. Therefore, that provision of the
Fifth Amendment also applies to the states.
Finally, the taking of private property for
public use without just compensation also applies to
the states through the Fourteenth Amendment.
See, e.g., Chi., B. & Q. R. Co. v. Chicago, 166 U.S.
226, 234, 17 S. Ct. 581, 583-84 (1897).
Paduano avers that there is simply no valid
reason why Virginia should be allowed to violate
Paduano’ constitutional right to a presentment or
indictment by a grand jury prior to answering for
crimes. It is erroneous for any court to take the
position that the grand jury provision is without
effect while enforcing all other Fifth Amendment
rights. Marbury, 5 U.S. 137.

Petition for Certiorari

Page 32

Concerning the importance of enforcing the
Bill of Rights, Justice Black has stated (emphasis
added):
The first ten amendments [the Bill of
Rights] were proposed and adopted
largely because of fear that
Government might unduly interfere
with prized individual liberties. The
people wanted and demanded a Bill of
Rights written into their Constitution.
The amendments embodying the Bill of
Rights were intended to curb all
branches of the Federal Government in
the fields touched by the amendments - Legislative, Executive, and Judicial.
The Fifth, Sixth, and Eighth
Amendments were pointedly aimed at
confining exercise of power by courts
and judges within precise boundaries,
particularly in the procedure used for
the trial of criminal cases. Past history
provided strong reasons for the
apprehensions which brought these
procedural amendments into being and
attest the wisdom of their adoption.
For the fears of arbitrary court action
sprang largely from the past use of
courts in the imposition of criminal
punishments to suppress speech, press,
and religion. Hence the constitutional
limitations of courts’ powers were, in
the view of the Founders, essential
supplements to the First Amendment,
Petition for Certiorari

Page 33

which was itself designed to protect the
widest scope for all people to believe
and to express the most divergent
political, religious, and other views.

Adamson v. California, 332 U.S. 46, 70, 67 S. Ct.
1672, 1685 (1947) (Black. J., dissenting) (footnotes
omitted).
The Privileges or Immunities Clause of the
Fourteenth Amendment declares that “[n]o State . .
. shall abridge the privileges or immunities of
citizens of the United States.”
As noted by Justice Thomas, constitutional
provisions are “written to be understood by the
voters.” McDonald v. City of Chi., 561 U.S. 742,
813, 130 S. Ct. 3020, 3063 (2010) (Thomas. J.,
concurring) (citing, District of Columbia v. Heller,
554 U.S. 570, 576, 128 S. Ct. 2783, 2783
(2008). Thus, in determining the scope of the
Fourteenth Amendment, it is pertinent to discern
what “ordinary citizens” at the time of ratification of
Petition for Certiorari

Page 34

the Fourteenth Amendment would have understood
the Privileges or Immunities Clause to mean. Id.
At the time that the Fourteenth Amendment,
the terms “privileges” and “immunities” had an
established meaning as synonyms for “rights.” Id.
The two words, standing alone or paired together,
were used interchangeably with the words “rights,”
“liberties,” and “freedoms,” and had been since the
time of Blackstone. Id. 561 U.S. at 814 (citing, 1 W.
Blackstone, Commentaries, which described the
“rights and liberties” of Englishmen as “private
immunities” and “civil privileges”). A number of
antebellum judicial decisions used the terms in this
manner. Id. (citing, Magill v. Brown, 16 F. Cas. 408,
428 (CC ED Pa. 1833) (“The words ‘privileges and
immunities’ relate to the rights of persons, place or
property; a privilege is a peculiar right, a private
law, conceded to particular persons or places”). Id.
Petition for Certiorari

Page 35

By the time of the adoption of the Fourteenth
Amendment, it had long been established that both
the States and the Federal Government existed to
preserve their citizens’ inalienable rights, and that
these rights were considered “privileges” or
“immunities” of citizenship. Id.
These principles arose from our country’s
English roots. Id. Fundamental rights, according to
English traditions, belonged to all people but
became legally enforceable only when recognized in
legal texts, including acts of Parliament and the
decisions of common-law judges. Id. (citing, B.
Bailyn, The Ideological Origins of the American
Revolution 77-79 (1967)).
Notably, concerning such rights, the First
Continental Congress declared in 1774 that the
King had wrongfully denied the colonists “the
rights, liberties, and immunities of free and naturalPetition for Certiorari

Page 36

born subjects . . . within the realm of England.” Id.
(citing, 1 Journals of the Continental Congress
1774-1789, p. 68 (W. Ford. ed. 1904)).
Several years later, the Bill of Rights was
adopted to amend the Constitution to expressly
protect the fundamental rights of citizens against
interference by the Federal Government. Id. 561
U.S. at 818. Consistent with their English heritage,
the founding generation generally did not consider
many of the rights identified in these amendments
as new entitlements, but as inalienable rights of all
men, given legal effect by their codification in the
Constitution’s text. Id., 561 U.S. at 818-819 (citing,
inter alia, 1 Annals of Cong. 431-432, 436-437, 440442 (1789) (statement of Rep. Madison) (proposing
Bill of Rights in the First Congress).
The United States Supreme Court’s
subsequent decision in Barron, however, held at the
Petition for Certiorari

Page 37

time it was rendered that the codification of these
rights in the Bill of Rights made them legally
enforceable only against the Federal Government,
not the States. 32 U.S. at 469, 7 Pet., at 247, 8 L.
Ed. at 751.
Section 1 of the Fourteenth Amendment
protects the rights of citizens “of the United States”.
Id. 561 U.S. at 823. In McDonald, Justice Thomas
provided evidence that overwhelmingly
demonstrated “that the privileges and immunities of
such citizens included individual rights enumerated
in the Constitution”. Id. Those individual rights
also include those enumerated in the Fifth
Amendment, including the right requiring a grand
jury indictment before being made to answer for any
infamous crime.
Notably, when the Fourteenth Amendment
was recommended for adoption, the Joint
Petition for Certiorari

Page 38

Committee on Reconstruction argued “adequate
security for future peace and safety . . . can only be
found in such changes of the organic law as shall
determine the civil rights and privileges of all
citizens in all parts of the republic.” Id. 561 U.S. at
827 (citing, Report of the Joint Committee on
Reconstruction, S. Rep. No. 112, 39th Cong., 1st
Sess., 15 (1866); H. R. Rep. No. 30, 39th Cong., 1st
Sess., p. XXI (1866).
Justice Thomas’ concurring analysis in

McDonald cited to a large body of evidence including
numerous speeches, publications, and legal
decisions as proving that the privileges or
immunities clause of section 1 of the Fourteenth
Amendment was intended and understood to have
the purpose to enforce the Bill of Rights against the
states. Id. 561 U.S. at 827-835.

Petition for Certiorari

Page 39

In this case, Paduano had a fundamental
right to constitutionally mandated grand jury
indictments in his case. Indeed, the law of Virginia
is fully compatible with the Fifth Amendment
provision in requiring Grand Jury indictments for
crimes such as those for which Paduano was
convicted. This is not a case where Virginia had any
reliance on an alternate procedure that could be
claimed to provide equivalent privileges and
immunities to a grand jury indictment.
Instead of acting properly, the Circuit Court
chose to largely ignore the mandated grand jury
indictment process and proceeded to try Paduano
without proper indictments. There was no proper
judge signed order indicting Paduano.
In summary, the grand jury right of the Fifth
Amendment should apply to the states through the
Fourteenth Amendment for the reasons stated
Petition for Certiorari

Page 40

herein. The Commonwealth of Virginia should not
be allowed to violate Paduano’ right to a
presentment or indictment from a Grand Jury and
then for Paduano to have no recourse.
Thus, the Fifth Amendment right to a grand
jury indictment or its functional equivalent should
apply to the states including, without limitation, the
Commonwealth of Virginia.
This Petition should be granted to affirm that
right.

4.

Does a defective grand jury
indictment in a state court criminal
case deprive the state court of
jurisdiction in such a case?
Paduano avers that the lack of an order of the

Circuit Court indicting him, the Circuit Court had no
jurisdiction over his case.
Petition for Certiorari

Page 41

A void judgment, is a judgment not subject to
time limitation and can be challenged at any time.
See, e.g., Galpin v. Page, 85 U.S. (18 Wall.) 350, 366
(1873); Slaughter v. Commonwealth, 222 Va. 787,
793 (1981). A judgment entered by a court without
jurisdiction is void. Id. A void judgment may be
attacked collaterally or directly in any court at any
time. Id.
The Virginia legislature has placed statutory
requirements on grand jury procedures in addition to
the long-standing common law and constitutional
requirements. Among other provisions, it is required
that grand jury indictments list the name of the
witness relied upon by the grand jury. Va. Code §
19.2-202.
It has also generally been long-standing law in
Virginia, until Hanson was incorrectly decided in
1948, that a failure to record a proper grand jury
Petition for Certiorari

Page 42

indictment in a court’s order book deprived a court
trying a case of jurisdiction. Commonwealth v.

Cawood, 4 Va. 527, 541 (1826). In Cawood, the
Virginia Supreme Court held:
It is undoubtedly true, that before any
person can have judgment rendered
against him for a felony, they must be
regularly accused by the Grand Jury of
his country, and his guilt must be
established by the verdict of a jury. The
accusation in due and solemn form, is as
indispensable as the conviction. What,
then, is the solemnity required by Law
in making the accusation? The Bill
Indictment is sent or delivered to the
Grand Jury, who, after hearing all the
evidence adduced by the
Commonwealth, decide whether it be
true Bill, or not. If they find it so, the
foreman of the Grand Jury endorses on
it, ‘a true Bill,’ and signs his name as
foreman, and then the Bill is brought
into Court by the Whole Grand Jury,
and in open Court it is publicly
delivered to the Clerk, who records the
fact. It is necessary that it should be
presented publicly by the Grand Jury;
that is the evidence required by Law to
prove that it is sanctioned by the
accusing body, and until it is so
presented by the Grand Jury, with the
endorsement aforesaid, the party
Petition for Certiorari

Page 43

charged by it is not indicted, nor is he
required, or bound, to answer to any
charge against him, which is not so
presented.

Id., 4 Va. at 541-542.
Thus, in order for a judgment based upon an
indictment to be valid, an indictment must be proper,
and must be “delivered in court by the grand jury,
and its finding recorded.” Simmons v.

Commonwealth, 89 Va. 156, 157 (1892). Failure to
deliver the indictment in court and record the finding
is a “fatal defect”. Id.
These long-standing principles have been
embodied in both Virginia statutory law and the
Virginia Supreme Court Rules. For example,
Virginia Supreme Court Rule 3A:5(c) requires that a
Grand Jury return and presents their indictment
findings in open court and that the indictment be
endorsed ‘A True Bill’ or ‘Not a True Bill’ and signed
by the foreman. Virginia statutes require the Clerk
Petition for Certiorari

Page 44

of the Court to record the Grand Jury indictment
findings in the Order Book in compliance with Va.
Code §§ 17.1-123(A) and 17.1-124 and 17.1-240.
A court speaks only through its orders. In
those cases where the jurisdiction of the court
depends upon compliance with certain mandatory
provisions of law, the court’s order, spread upon its
order book, must show such compliance or
jurisdiction is not obtained. See, e.g., Simmons, 89
Va. at 159; Cawood, 4 Va. at 542.
The Simmons case is particularly pertinent
authority. In Simmons, the defendant was convicted
of first degree murder. Simmons, 89 Va. at 157.
Like Paduano in this case, the defendant in Simmons
was convicted based upon a grand jury document,
just as in Paduano’s case, that had allegedly been
signed by a grand jury foreman, but had not been
recorded in any order book of the circuit court. Id.
Petition for Certiorari

Page 45

The Lee County Virginia Circuit Court had found the
defendant in Simmons guilty and did not grant him
relief based upon a lack of any recording of grand
jury indictment. Id. However, the Virginia Supreme
Court reversed the conviction and found that the
failure to record the grand jury indictment in an
order book of the circuit court was a fatal defect. Id.
Under Virginia law, although a prisoner has in
fact been arraigned on, and has pleaded to, an
indictment not appearing by the record to have been
found by the Grand Jury, and if a third actual term
has passed without such record of the findings, he is
entitled under Va. Code § 19.2-242 to be discharged
from the crime. Cawood, 4 Va. at 546; Adcock v.

Commonwealth, 49 Va. (Gratt.) 661, 671 (1851).
In this case Paduano should be forever
discharged of the crimes charged because three (3) or
more terms of the Circuit Court have passed without
Petition for Certiorari

Page 46

a trial on valid indictments that were presented in
open court by the Grand Jury and recorded.
Federal Courts have generally fully complied
with the requirements of the Fifth Amendment
concerning grand jury indictments. As a result, this
Honorable Court does not appear to have previously
addressed a case in which no order was entered
indicting a defendant in a criminal matter. In a rare
occurrence of non-compliance, the Fourth Circuit
Court of Appeals found that a failure to properly
record a grand jury indictment was a fatal defect. In
its opinion, the Fourth Circuit Court of Appeals
stated concerning proper procedures for grand jury
indictments and their importance:
1 Chitty on Crim. Law, 324, describes
the mode in which the grand jury
returns the results of their inquiries to
the court, by indorsing “A True Bill” if
found, and “Not a True Bill” if rejected;
and says:
“When the jury have made these
indorsements on the bills, they bring
Petition for Certiorari

Page 47

them publicly into court, and the clerk
of the peace at sessions, or clerk of
assize on the circuit, calls all the
jurymen by name, who severally
answer to signify that they are
present, and then the clerk of the
peace or assize asks the jury
whether they agreed upon any
bills, and bids them present them
to the court, and then the foreman
of the jury hands the indictments
to the clerk of peace or clerk of
assize.”
4 Blackstone, 306, also describes the
functions of the grand jury and the
methods of its proceedings, the
necessity of 12 at least assenting to the
accusation, and adds:
“And the indictment when so found is
publicly delivered into court.”
A later text-writer (1 Bishop on Crim.
Procedure, § 869) says:
“When the grand jury has found its
indictments, it returns them into open
court, going personally in a body.”

Renigar v. United States, 172 F. 646, 648 (4th Cir.
1909). The importance of following proper
constitutionally based processes was particularly
emphasized in Renigar:
Neither sound reason nor public policy
justifies any departure from settled
Petition for Certiorari

Page 48

principles applicable in criminal
prosecutions for infamous crimes. Even
if there were a wide divergence among
the authorities upon this subject, safety
lies in adhering to established modes of
procedure devised for the security of life
and liberty, nor ought the courts in
their abhorrence of crime, nor because
of their anxiety to enforce the law
against criminals, to countenance the
careless manner in which the records of
cases involving the life or liberty of an
accused, are often prepared …
Illegitimate and unconstitutional
practices get their first footing in that
way, namely, by silent approaches and
slight deviations from legal modes of
procedure. This can only be obviated by
adhering to the rule that constitutional
provisions for the security of person and
property should be liberally construed.
A close and literal construction deprives
them of half their efficacy, and leads to
gradual depreciation of the right as if it
consisted more in sound than in
substance. It is the duty of all the courts
to be watchful for the constitutional
rights of the citizen, and against any
stealthy encroachments. Their motto
should be Obsta principiis.’”

Renigar, 172 F. at 652, 655.
Paduano recognizes that Renigar has been
criticized and claimed by lower courts to have been
Petition for Certiorari

Page 49

abrogated. See, e.g., United States v. Lennick, 18
F.3d 814, 817 (9th Cir. 1994). However, Renigar has
not been deemed invalid law by a ruling of this
Honorable Court, which is the only court having
authority to do so. It is also the case that Lennick
specifically is distinguishable in that there was
actually an order entered in that case although it
was not properly entered in open court. Id. In
Paduano’s case, no order of any form was ever
entered.
In the case at bar, Paduano avers that his
constitutional rights were violated as to never being
properly indicted. There is nothing in the court’s
records that show that a clerk called each of the
grand jurors by name to signify that they were
present or asked the grand jury whether they
agreed on any bills. Moreover, the Circuit Court
has no record of any indictment against Paduano
Petition for Certiorari

Page 50

having been entered in the Order Book. The failure
of the Circuit Court to record in the Order Book,
that the Grand Jury had returned into open court
and presented true bill indictments against
Paduano, is a fatal defect in the indictment process.
Paduano contends that the failure of the Circuit
Court to record the Grand Jury's indictment
findings in an Order Book in a judge signed order is
a fatal defect that rendered his indictments a nullity
and his convictions void ab initio for lack of
jurisdiction. Cawood, 4 Va. at 541.
Accordingly, Paduano requests that this
Honorable Court grant this Petition and rule that
the failure to indict Paduano are fatal defects that
render his indictments nullities and his convictions
void for lack of jurisdiction.

Petition for Certiorari

Page 51

C. Paduano’s further defective grand jury
indictment deprived this Court of
jurisdiction as to the alleged violation
of Va. Code §18.2-63 (A)
Jurisdiction is the power to adjudicate a case
upon the merits and dispose of it as justice may
require. Shelton v. Sydnor, 126 Va. 625, 629, 102
S.E. 83, 85 (1920). This necessarily involves the
idea that there must be jurisdiction of the subjectmatter of the litigation, and also over the parties
thereto. If either is wanting, the resulting judgment
is void. Evans v. Smith-Wythe Airport Comm’n, 255
Va. 69 (1998).
“It is essential to the validity of a judgment
or decree, that the court rendering it shall have
jurisdiction of both the subject-matter and parties.
But this is not all, for both of these essentials may
exist and still the judgment or decree may be void,
Petition for Certiorari

Page 52

because the character of the judgment was not such
as the court had the power to render, or because the
mode of procedure employed by the court was such
as it might not lawfully adopt.” Id., (quoting,

Anthony v. Kasey, 83 Va. 338, 340, 5 S.E. 176, 177
(1887)).
Paduano’s 5th, 6th and 14th Constitutional
Rights were violated denying him due process and
the right to be informed of the nature and cause of
the accusations against him.
Virginia statutory law recognizes that a
judgment in any criminal case is subject to being
arrested or reversed upon if it is so defective as to be
in violation of the Constitution. Va. Code § 19.2227.
“In order for an indictment to be “so defective
as to be in violation of the constitution” so that a
final judgment in a criminal case will be declared
Petition for Certiorari

Page 53

void, the defect must have deprived the defendant of
the ability to defend against the charge, this
depriving him of due process as required by the 6th
and 14th Amendments.” Reed v. Commonwealth,
281 Va. 471, 481, 706 S.E. 2d 854, 860 (2011).
Va. Code § 18.2-63 (A) states, “If any person
carnally knows, without the use of force, a child
thirteen years of age or older but under fifteen years
of age, such person shall by guilty of a Class 4
felony.”
“The function of an indictment is to give an
accused notice of the nature and character of
accusations against him so that he can prepare an
adequate defense.” Reed, 281 Va. at 481, 706 S.E. 2d
at 860.
Paduano has identified a legally required
matter that was left out of the indictments that
resulted in depriving him of a substantial right and
Petition for Certiorari

Page 54

subjected him to the danger of being tried upon a
charge for which he was not properly indicted.
In the language of Code of Virginia §18.2-63
(A) “…without the use of force…” is an essential
element of the offense that would adequately
apprise Paduano with nature and cause of the
accusation. The indictment(s) must contain every
essential element of the crime alleged. “The Fifth
Amendment guarantees that an individual cannot
be prosecuted for a capital or infamous offense
except on presentment or indictment of a Grand
Jury.” U.S. Constitution Amendment V. In
addition, the Sixth Amendment requires that a
defendant must “be informed of the nature and
cause of the accusation” against him. U.S.
Constitution Amendment VI. The criteria against
which the sufficiency of an indictment is judged
reflects these guarantees. See Russell v. United
Petition for Certiorari

Page 55

States, 369 U.S. 749, 760-64, 8 L. Ed. 2d 240 (1962).
“An indictment must contain the elements of the
offense charged, fairly inform a defendant of the
charge, and enable the defendant to plead double
jeopardy as a defense in a future prosecution for the
same offense.” United States v. Hooker, 841 F. 2d
1225, 1234 (4th Cir. 1988) (en banc) (citing, Hamling

v. United States, 418 U.S. 87, 117, 41 L. Ed. 2d 590
(1974); Russell v. United States, 369 U.S. at 763-64.
By leaving out or not meeting the language of
“without the use of force” from the indictment(s), the
indictment(s) did not fairly inform Paduano of the
charge. “Without the use of force” is an element of
the crime or alleged offense that should have been
proven at trial in order to convict under the Code of
Virginia §18.2-63 (A).
“As long as an indictment sufficiently
recites the elements, the Commonwealth is not
Petition for Certiorari

Page 56

required to include all evidence upon which it plans
to rely to prove a particular offense.” Sims v.

Commonwealth, 28 Va. App. 611, 619-620 (1998).
However, in the subject cases, Paduano’s lawyer
requested a Bill of Particulars which request was
denied. The elements of this particular offense(s)
were not recited sufficiently enough, denying
Paduano his Constitutional Rights and causing the
judgments of the offense of §18.2-63(A) for
Indictment numbers CR 12000592-00 and CR
12000477-00 to be void. Indictment numbers CR
12000592-00 and CR 12000477-00 are invalid
indictments being used to obtain a conviction, the
character of the judgment was not such as the court
had the power to render.

VI.

Overall Conclusion
For all of the reasons stated herein, Paduano’s

Petition for Certiorari

Page 57

Petition for Certiorari should be granted and his
convictions vacated.
Dated: February 1, 2021
by
/s/ Dale R. Jensen
Dale R. Jensen
Dale Jensen, PLC
606 Bull Run
Staunton, Virginia 24401
(434) 249-3874
djensen@jensenjustice.com
Attorney for Petitioner
Dwayne Lamar Paduano, Sr.

Petition for Certiorari

Page 58

